Destiny™ Mastercard® Account
First Electronic Bank

M-133848

Interest Rates and Interest Charges
Annual Percentage Rate (APR)
for Purchases

29.90%

APR for Cash Advances

29.90%

Penalty APR and When It
Applies

None.

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will not charge
you any interest on purchases if you pay your entire balance by the due date each
month. We will begin charging interest on cash advances on the transaction date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.00.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit
the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

Fees
Set Up and Maintenance Fees

NOTICE: Some of these set up and maintenance fees will be assessed before you begin
using your card and will reduce the amount of credit you initially have available. Based
on the credit line of $300, your initial available credit will be only about $225.
You may reject this plan, provided that you have not yet used the account or paid a fee
after receiving a billing statement. If you do reject this plan, you are not responsible for
any fees or charges.

• Annual Fee

$75 the first year; $99 thereafter

Transaction Fees
• Cash Advance Fee

$5 or 5% of the amount of each transaction, whichever is greater (not to exceed $100)

• Foreign Transaction Fee

1% of each transaction in U.S. dollars

Penalty Fees
• Late Payment Fee

Up to $40

• Overlimit Fee

Up to $40

• Returned Payment Fee

Up to $40

How We Calculate Your Balance: We use a method called “average daily balance (including new purchases)”. See your
Cardholder Agreement for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your
Cardholder Agreement.

